APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A

Listing
of
States’ Binding
Statutes . . . . . . . . . . . . . . . . . . App. 1

Appendix B

Verified Complaint for Declaratory
and Injunctive Relief in the United
States District Court for the
District of Colorado
(December 6, 2016) . . . . . . . . App. 19
Exhibit 1:
Affidavit of Polly Baca in
Support of Verified Complaint
for Declaratory and Injunctive
Relief. . . . . . . . . . . . . . . . . App. 30
Affidavit of Robert Nemanich in
Support of Verified Complaint
for Declaratory and Injunctive
Relief. . . . . . . . . . . . . . . . . App. 36

App. 1

APPENDIX A
List of States’ Binding Statutes
Alabama
Ala. Code § 17-14-31(c) (2019): “Each person so listed
shall execute the following statement . . . ‘I do hereby
consent and do hereby agree to serve as elector for
President and Vice President of the United States, if
elected to that position, and do hereby agree that, if so
elected, I shall cast my ballot as such elector for
__________ for President and __________ for Vice
President of the United States’ (inserting in the blank
spaces the respective names of the persons named as
nominees for the respective offices in the certificate to
which this statement is attached).”
Alaska
Alaska Stat. § 15.30.040 (2019): “The party shall
require from each candidate for elector a pledge that as
an elector the person will vote for the candidates
nominated by the party of which the person is a
candidate.”
Alaska Stat. § 15.30.080 (2019): “If there is a vacancy
caused by death, failure to attend, ineligibility, or other
cause, and if available alternates have not been
designated, the electors shall fill the vacancy by
plurality vote.”
Alaska Stat. § 15.30.090 (2019): “After any vacancies
have been filled, the electors shall proceed to cast their

App. 2
votes for the candidates for the office of President and
Vice-President of the party that selected them as
candidates for electors.”
Arizona
Ariz. Rev. Stat. Ann. § 16-212 (2019): “B. . . . the
presidential electors of this state shall cast their
electoral college votes for the candidate for president
and the candidate for vice president who jointly
received the highest number of votes in this state as
prescribed in the canvass.
C. A presidential elector who knowingly refuses to cast
that elector’s electoral college vote as prescribed in
subsection B of this section is no longer eligible to hold
the office of presidential elector and that office is
deemed and declared vacant by operation of law.”
California
Cal. Elec. Code § 6906 (2019): “The electors, when
convened, if both candidates are alive, shall vote by
ballot for that person for President and that person for
Vice President of the United States, who are,
respectively, the candidates of the political party which
they represent, one of whom, at least, is not an
inhabitant of this state.”
Colorado
Colo. Rev. Stat. § 1-4-304(1) (2019): “The presidential
electors shall convene at the capital of the state, in the
office of the governor at the capitol building, on the
first Monday after the second Wednesday in the first
December following their election at the hour of 12

App. 3
noon and take the oath required by law for presidential
electors. If any vacancy occurs in the office of a
presidential elector because of death, refusal to act,
absence, or other cause, the presidential electors
present shall immediately proceed to fill the vacancy in
the electoral college. When all vacancies have been
filled, the presidential electors shall proceed to perform
the duties required of them by the constitution and
laws of the United States. The vote for president and
vice president shall be taken by open ballot.”
Colo. Rev. Stat. § 1-4-304(5) (2019): “Each presidential
elector shall vote for the presidential candidate and, by
separate ballot, vice-presidential candidate who
received the highest number of votes at the preceding
general election in this state.”
Connecticut
Conn. Gen. Stat. § 9-176 (2019): “The presidential
electors . . . shall cast their ballots for President and
Vice President. Each such elector shall cast his ballots
for the candidates under whose names he ran on the
official election ballot, as provided in section 9-175.”
Delaware
Del. Code Ann. tit. 15, § 4303(b) (2019): “In all cases,
the electors chosen or appointed in this State for the
election of a President and Vice President of the United
States under this chapter shall be required to cast their
individual votes for the presidential and vice
presidential nominees, or their legal successors, of the
political party that nominated the elector.”

App. 4
District of Columbia
D.C. Code § 1-1001.08(g)(2) (2019): “Each person
elected as elector of President and Vice President shall,
in the presence of the Board, take an oath or solemnly
affirm that he or she will vote for the candidates of the
party he or she has been nominated to represent, and
it shall be his or her duty to vote in such manner in the
electoral college.”
Florida
Fla. Stat. § 103.021(1) (2019): “Each such elector shall
be a qualified elector of the party he or she represents
who has taken an oath that he or she will vote for the
candidates of the party that he or she is nominated to
represent.”
Hawaii
Haw. Rev. Stat. § 14-28 (2019): “The electors . . . shall
vote by ballot for that person for president and that
person for vice president of the United States, who are,
respectively, the candidates of the political party or
group which they represent, one of whom, at least, is
not an inhabitant of this State.”
Indiana
Ind. Code § 3-10-4-1.7 (2019): “(a) Each presidential
elector nominee and each alternate presidential elector
nominee of a political party shall execute the following
pledge: ‘If selected for the office of presidential elector,
I agree to serve and to mark my ballots for President
and Vice President for the nominees for those offices of
the party that nominated me.’

App. 5
(b) Each presidential elector nominee and each
alternate presidential elector nominee of a candidate
not affiliated with a political party shall execute the
following pledge: ‘If selected for the office of elector for
a presidential candidate not affiliated with a political
party, I agree to serve and to mark my ballots for that
candidate and for that candidate’s vice-presidential
running mate.’”
Ind. Code § 3-10-4-9 (2019): “(c) . . . each presidential
elector shall present both completed ballots to the
secretary of state, who shall examine the ballots and
accept as cast all ballots of presidential electors whose
votes are consistent with the presidential electors’
pledges executed under section 1.7 or 8(c) of this
chapter . . . the secretary of state may not accept and
may not count either a presidential elector’s
presidential or vice-presidential ballot if the
presidential elector has not marked both ballots or has
marked a ballot in violation of the presidential elector’s
pledge.
(d) A presidential elector who refuses to present a
ballot, presents an unmarked ballot, or presents a
ballot marked in violation of the presidential elector’s
pledge executed under section 1.7 or 8(c) of this
chapter, vacates the office of presidential elector.”
Maine
Me. Stat. tit. 21-A, § 805(2) (2019): “The presidential
electors at large shall cast their ballots for the
presidential and vice-presidential candidates who
received the largest number of votes in the State. The
presidential electors of each congressional district shall

App. 6
cast their ballots for the presidential and vicepresidential candidates who received the largest
number of votes in each respective congressional
district.”
Maryland
Md. Code Ann., Elec. Law § 8-505(c) (2019): “After
taking the oath prescribed by Article I, § 9 of the
Maryland Constitution . . . the presidential electors
shall cast their votes for the candidates for President
and Vice President who received a plurality of the votes
cast in the State of Maryland.”
Md. Const. art. I, § 9: “Every person elected, or
appointed, to any office of profit or trust, under this
Constitution, or under the Laws, made pursuant
thereto, shall . . . take and subscribe the following oath,
or affirmation: I, __________, do swear, (or affirm, as
the case may be,) that I will support the Constitution
of the United States; and that I will be faithful and
bear true allegiance to the State of Maryland, and
support the Constitution and Laws thereof; and that I
will, to the best of my skill and judgment, diligently
and faithfully, without partiality or prejudice, execute
the office of __________, according to the Constitution
and Laws of this State.”
Md. Const. art. I, § 11: “Every person, hereafter
elected, or appointed, to office, in this State, who shall
refuse, or neglect, to take the oath, or affirmation of
office, provided for in the ninth section of this Article,
shall be considered as having refused to accept the said
office; and a new election, or appointment, shall be
made, as in case of refusal to accept, or resignation of

App. 7
an office; and any person violating said oath, shall, on
conviction thereof, in a Court of Law, in addition to the
penalties now, or hereafter, to be imposed by Law, be
thereafter incapable of holding any office of profit or
trust in this State.”
Massachusetts
Mass. Gen. Laws ch. 53, § 8 (2019): “The surnames of
the candidates for president and vice president of the
United States shall be added to the party or political
designation of the candidates for presidential electors.
. . . Said acceptance form shall include a pledge by the
presidential elector to vote for the candidate named in
the filing.”
Mass. Gen. Laws ch. 54, § 78A (2019): “In any year in
which presidential electors are to be elected . . . there
may be filed with the secretary of the commonwealth,
in a form to be prescribed by him, a list of names and
addresses of candidates for such electors, containing
the names and addresses of a candidate for president
and for vice president to whom such electors shall be
pledged in writing. Said list shall contain the written
acceptance of each candidate for presidential elector,
who shall be a voter of the commonwealth, and the
written acceptance of the presidential and vice
presidential candidates, who shall be candidates other
than those whose names are to be printed upon the
official ballot.”
Michigan
Mich. Comp. Laws § 168.47 (2019): “At any time before
receipt of the certificate of the governor or within 48
hours thereafter, an elector may resign by submitting

App. 8
his written and verified resignation to the governor.
Failure to so resign signifies consent to serve and to
cast his vote for the candidates for president and vicepresident appearing on the Michigan ballot of the
political party which nominated him. Refusal or failure
to vote for the candidates for president and vicepresident appearing on the Michigan ballot of the
political party which nominated the elector constitutes
a resignation from the office of elector, his vote shall
not be recorded and the remaining electors shall
forthwith fill the vacancy. . . . When all the electors
appear and the vacancy shall be filled, they shall
proceed to perform the duties of such electors, as
required by the constitution and laws of the United
States.”
Minnesota
Minn. Stat. § 208.46 (2019): “(b) Except as otherwise
provided by law of this state other than this chapter,
each elector shall present both completed ballots to the
secretary of state, who shall examine the ballots and
accept as cast all ballots of electors whose votes are
consistent with their pledges executed under section
208.43 or 208.45, paragraph (c). Except as otherwise
provided by law of this state other than this chapter,
the secretary of state may not accept and may not
count either an elector’s presidential or vicepresidential ballot if the elector has not marked both
ballots or has marked a ballot in violation of the
elector’s pledge.
(c) An elector who refuses to present a ballot, presents
an unmarked ballot, or presents a ballot marked in
violation of the elector’s pledge executed under section

App. 9
208.43 or 208.45, paragraph (c), vacates the office of
elector, creating a vacant position to be filled under
section 208.45.”
Mississippi
Miss. Code. Ann. § 23-15-785(3) (2019): “(3) . . . Each
person so listed shall execute the following statement
which shall be attached to the certificate or petition
when it is filed with the State Board of Election
Commissioners: ‘I do hereby consent and do hereby
agree to serve as elector for President and Vice
President of the United States, if elected to that
position, and do hereby agree that, if so elected, I shall
cast my ballot as such for __________ for President and
__________ for Vice President of the United States’
(inserting in said blank spaces the respective names of
the persons named as nominees for said respective
offices in the certificate to which this statement is
attached).”
Montana
Mont. Code Ann. § 13-25-307 (2019): “(3) Unless
otherwise provided by law, each elector shall present
both completed ballots to the secretary of state, who
shall examine the ballots and accept as cast all ballots
of electors whose votes are consistent with their
pledges executed under 13-25-304 or 13-25-306(3).
Except as otherwise provided by law, the secretary of
state may not accept and may not count either an
elector’s presidential or vice presidential ballot if the
elector has not marked both ballots or has marked a
ballot in violation of the elector’s pledge.

App. 10
(4) An elector who refuses to present a ballot, presents
an unmarked ballot, or presents a ballot in violation of
the elector’s pledge executed under 13-25-304 or 13-25306(3) vacates the office of elector, creating a vacant
position to be filled under 13-25-306.”
Nebraska
Neb. Rev. Stat. § 32-714 (2019): “(3) Each presidential
elector shall present the completed ballot to the
Secretary of State. The Secretary of State shall
examine each ballot and accept as cast each ballot
marked by a presidential elector consistent with his or
her pledge. The Secretary of State shall not accept and
shall not count the ballot if the presidential elector has
not marked the ballot or has marked the ballot in
violation of his or her pledge.
(4) A presidential elector who refuses to present a
ballot, who attempts to present an unmarked ballot, or
who attempts to present a ballot marked in violation of
his or her pledge vacates the office of presidential
elector.”
Nevada
Nev. Rev. Stat. § 298.075 (2019): “2. After all
presidential electors have presented their ballots to the
Secretary of State, the Secretary of State shall examine
each ballot. If a presidential elector:
(a) Presents both ballots and the ballots are marked
with votes for the person who received the highest
number of votes at the general election for the office of
President and the person who received the highest
number of votes at the general election for the office of

App. 11
Vice President, respectively, the Secretary of State
shall accept both ballots.
(b) Does not present both ballots, presents an
unmarked ballot or presents a ballot marked with a
vote that does not conform with the provisions of
subsection 1:
(1) The Secretary of State shall refuse to accept either
ballot of the presidential elector; and
(2) The Secretary of State shall deem the presidential
elector’s position vacant. The vacancy must be filled
pursuant to the provisions of NRS 298.065. The person
appointed to fill the vacancy in the position of
presidential elector, after signing the pledge described
in NRS 298.065, shall mark both ballots and present
both ballots to the Secretary of State pursuant to this
section.”
New Mexico
N.M. Stat. Ann. § 1-15-9 (2019): “A. All presidential
electors shall cast their ballots in the electoral college
for the candidates of the political party which
nominated them as presidential electors.
B. Any presidential elector who casts his ballot in
violation of the provisions contained in Subsection A of
this section is guilty of a fourth degree felony.”
North Carolina
N.C. Gen. Stat. § 163-212 (2019): “Any presidential
elector having previously signified his consent to serve
as such, who fails to attend and vote for the candidate
of the political party which nominated such elector, for

App. 12
President and Vice-President of the United States . . .
shall forfeit and pay to the State five hundred dollars
($500.00), to be recovered by the Attorney General in
the Superior Court of Wake County. In addition to such
forfeiture, refusal or failure to vote for the candidates
of the political party which nominated such elector
shall constitute a resignation from the office of elector,
his vote shall not be recorded, and the remaining
electors shall forthwith fill such vacancy as
hereinbefore provided.”
Ohio
Ohio Rev. Code Ann. § 3505.40 (2019): “A presidential
elector elected at a general election or appointed
pursuant to section 3505.39 of the Revised Code shall,
when discharging the duties enjoined upon him by the
constitution or laws of the United States, cast his
electoral vote for the nominees for president and vicepresident of the political party which certified him to
the secretary of state as a presidential elector pursuant
to law.”
Oklahoma
Okla. Stat. tit. 26, § 10-102 (2019): “Every party
nominee for Presidential Elector shall subscribe to an
oath, stating that said nominee, if elected, will cast a
ballot for the persons nominated for the offices of
President and Vice President by the nominee’s
party. . . . Failure of any party nominee to take and file
the oath by such date shall automatically vacate his or
her nomination and a substitute nominee shall be
selected by the state central committee of the
appropriate political party. It shall be the duty of the

App. 13
Secretary of the State Election Board to notify the
chairman of the state central committee of the failure
of any nominee to file the oath. Refusal or failure to
vote by a Presidential Elector for the persons
nominated for the offices of President and Vice
President by the nominee’s party shall constitute a
violation of the oath and shall result in the immediate
forfeiture of the Elector’s office. In such event, the vote
shall not be recorded, a vacancy shall be declared, and
the Presidential Electors present shall proceed to fill
such vacancy as provided in Section 10-108 of this
title.”
Okla. Stat. tit. 26, § 10-109 (2019): “Any Presidential
Elector who violates his oath as a Presidential Elector
shall be guilty of a misdemeanor and, upon conviction
thereof, shall be punished by a fine of not more than
One Thousand Dollars ($1,000.00).”
Oregon
Or. Rev. Stat. § 248.355(2) (2019): “A candidate for
elector when selected shall sign a pledge that, if
elected, the candidate will vote in the electoral college
for the candidates of the party for President and Vice
President. The Secretary of State shall prescribe the
form of the pledge. The party shall certify the names of
the selected candidates for elector to the Secretary of
State not later than the 70th day before the election of
electors.”
Or. Rev. Stat. § 248.370 (2019): “When all the electors
have appeared or the vacancies have been filled, the
electors shall perform the duties required of them by
the Constitution and laws of the United States.”

App. 14
South Carolina
S.C. Code Ann. § 7-19-80 (2019): “Each candidate for
presidential and vice-presidential elector shall declare
which candidate for president and vice-president he
will vote for if elected. Those elected shall vote for the
president and vice-president candidates for whom they
declared. Any person selected to fill a vacancy in the
electoral college shall vote for the candidates the
elector whose place he is taking had declared for. The
declaration shall be made to the Secretary of State on
such form as he may require not later than sixty days
prior to the general election for electors. No candidate
for president and vice-president elector shall have his
name placed on the ballot who fails to make such
declaration by the prescribed time. Any elector who
votes contrary to the provisions of this section shall be
deemed guilty of violating the election laws of this
State and upon conviction shall be punished according
to law. Any registered elector shall have the right to
institute proper action to require compliance with the
provisions of this section. The Attorney General shall
institute criminal action for any violation of the
provision of this section. Provided, the executive
committee of the party from which an elector of the
electoral college was elected may relieve the elector
from the obligation to vote for a specific candidate
when, in its judgment, circumstances shall have arisen
which, in the opinion of the committee, it would not be
in the best interest of the State for the elector to cast
his ballot for such a candidate.”

App. 15
Tennessee
Tenn. Code Ann. § 2-15-104(c)(1) (2019): “The electors
shall cast their ballots in the electoral college for the
candidates of the political party which nominated them
as electors if both candidates are alive.”
Utah
Utah Code Ann. § 20A-13-304(3) (2019): “Any elector
who casts an electoral ballot for a person not
nominated by the party of which he is an elector, except
in the cases of death or felony conviction of a candidate,
is considered to have resigned from the office of elector,
his vote may not be recorded, and the remaining
electors shall appoint another person to fill the
vacancy.”
Vermont
Vt. Stat. Ann. tit. 17, § 2732 (2019): “The electors shall
meet . . . to vote for President and Vice President of the
United States, agreeably to the laws of the United
States. . . . When all the electors appear or a vacancy
therein is filled, the electors shall perform the duties
required of them by the Constitution and laws of the
United States. . . . The electors must vote for the
candidates for President and Vice President who
received the greatest number of votes at the general
election.”
Virginia
Va. Code Ann. § 24.2-203 (2019): “When all electors are
present, or the vacancies have been filled, they shall

App. 16
proceed to perform the duties required of such electors
by the Constitution and laws of the United States.
Electors selected by the state convention of any
political party as defined in § 24.2-101 shall be required
to vote for the nominees of the national convention to
which the state convention elects delegates. Electors
named in any petition of qualified voters as provided in
§ 24.2-543 shall be required to vote for the persons
named for President and for Vice President in the
petition.”
Va. Code Ann. § 24.2-542 (2019): “In elections for
President and Vice President of the United States, the
appropriate chairman or secretary of each political
party shall furnish . . . (i) the names of the electors
selected by the party at its convention held for that
purpose, together with the names of the political party
and of the candidates for President and Vice President
for whom the electors are required to vote in the
Electoral College and (ii) a copy of a subscribed and
notarized oath by each elector stating that he will, if
elected, cast his ballot for the candidates for President
and Vice President nominated by the party that
selected the elector, or as the party may direct in the
event of death, withdrawal or disqualification of the
party nominee. In the event of the death or withdrawal
of a candidate of a political party for President or Vice
President, that party may substitute the name of a
different candidate before the State Board certifies to
the county and city electoral boards the form of the
official ballots. The State Board shall also be furnished,
if it requests, with satisfactory evidence that any
person undertaking to act as an elector on behalf of any

App. 17
political party is, in fact, duly and properly authorized
to do so.”
Washington
Wash. Rev. Code § 29A.56.090 (2019): “(2) . . . each
elector shall present both completed ballots to the
secretary of state, who shall examine the ballots and
accept as cast all ballots of electors whose votes are
consistent with their pledges executed under RCW
29A.56.084 or 29A.56.088(3). Except as otherwise
provided by law of this state other than RCW
29A.56.080 through 29A.56.092, the secretary of state
may not accept and may not count either an elector’s
presidential or vice presidential ballot if the elector has
not marked both ballots or has marked a ballot in
violation of the elector’s pledge.
(3) An elector who refuses to present a ballot, presents
an unmarked ballot, or presents a ballot marked in
violation of the elector’s pledge executed under RCW
29A.56.084 or 29A.56.088(3) vacates the office of
elector, creating a vacant position to be filled under
RCW 29A.56.088.”
Wisconsin
Wis. Stat. § 7.75 (2019): “(1) . . . When all electors are
present, or the vacancies filled, they shall perform their
required duties under the constitution and laws of the
United States.
(2) The presidential electors, when convened, shall vote
by ballot for that person for president and that person
for vice president who are, respectively, the candidates
of the political party which nominated them under s.

App. 18
8.18, the candidates whose names appeared on the
nomination papers filed under s. 8.20, or the candidate
or candidates who filed their names under s. 8.185(2),
except that at least one of the persons for whom the
electors vote may not be an inhabitant of this state. A
presidential elector is not required to vote for a
candidate who is deceased at the time of the meeting.”
Wyoming
Wyo. Stat. Ann. § 22-19-108 (2019): “All Wyoming
electors shall vote for the candidates for the office of
president and vice-president receiving the highest
number of votes in the Wyoming general election.”

App. 19

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No.
[Filed December 6, 2016]
________________________________
POLLY BACA and ROBERT
)
NEMANICH,
)
)
Plaintiffs
)
)
v.
)
)
JOHN W. HICKENLOOPER JR., )
in his official capacity as Governor )
of Colorado, CYNTHIA H.
)
COFFMAN, in her official capacity )
as Attorney General of Colorado, )
and WAYNE W. WILLIAMS,
)
in his official capacity as Colorado )
Secretary of State.
)
)
Defendants.
)
________________________________ )
VERIFIED COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF

App. 20
Plaintiffs, through undersigned counsel, for their
complaint against the above-named defendants avers
as follows.
General, Jurisdictional and Venue Allegations
1.
Polly Baca is a resident of the City and
County of Denver, Colorado and, pursuant to C.R.S.
§ 1-4-302, is an elector.
2.
Robert Nemanich is a resident of El Paso
County, Colorado and, pursuant to C.R.S. §1-4-302, is
an elector.
3.
Defendant John W. Hickenlooper is the
Governor of Colorado and, as its chief executive, has
the power to enforce the laws of the State of Colorado,
including C.R.S. § 1-4-304(5).
4.
Defendant Cynthia H. Coffman is the
Attorney General of Colorado and, in such capacity,
enforces the laws of the State of Colorado, including
C.R.S. § 1-4-304(5).
5.
Defendant Wayne W. Williams is the
Secretary of State of Colorado and, as such, gives notice
of the time and place for the Presidential Electors to
vote, provides documents pursuant to C.R.S. § 1-4-304,
certifies the results of the Presidential Electors’
balloting and votes, and, upon information and belief
has authority to replace a Presidential Elector.
6.
This Court has jurisdiction over the subject
matter of this dispute as it relates to a federal question,
28 U.S.C. § 1331 as well as 28 U.S.C. §§ 2201 and 2202.

App. 21
7.
The federal question presented by this case is
the constitutionality of Colorado’s Presidential Electors
statute, C.R.S. § 1-4-304(5), which requires electors to
vote “for the presidential candidate and, by separate
ballot, vice-presidential candidate who received the
highest number of votes at the preceding general
election in this state.” This statute violates Article II of
the U.S. Constitution, the First Amendment, the
Twelfth Amendment, and the Fourteenth Amendment.
8.
Unless this Court issues the relief requested,
Plaintiffs’ constitutional rights will be violated by
Colorado, through the various Defendants. No state,
including Colorado, can compel any person, including
Plaintiffs, to cast his or her vote for any particular
candidate whether in a general election, a special
election, or the convention of the Presidential Electors.
Further, any state law that dilutes the votes of its
electors violates the Equal Protection Clause.
9.
Venue is proper in this Court under 28 U.S.C.
§ 1391(b).
Claim for Relief
10.
Plaintiffs incorporate the prior allegations as
if fully set forth herein.
11.
Plaintiffs were nominated as a Presidential
Elector at the Democratic Convention held on April 16,
2016. Each is a duly authorized Presidential Elector of
the Democratic Party and have met all qualifications to
be an elector.
12.
Plaintiffs were required to sign an affidavit at
the time they became Presidential Electors affirming

App. 22
that they would cast their ballots on December 19,
2016 for the Democratic Presidential and VicePresidential candidates. See Affidavits of Plaintiffs
attached at Exhibit 1.
13.
The Democratic Presidential candidate is
Hillary Rodham Clinton. The Democratic VicePresidential Candidate is Timothy Kaine.
14.
Though the Democratic nominees for
President and Vice-president won the nationwide
popular vote by at least 2.5 million votes, the various
states’ popular votes portend that Donald Trump and
Michael Pence (the Republican presidential and vice
presidential nominees) will win the majority of
electoral college votes on December 19, 2016 if the
electors in each state vote consistent with the popular
vote in their respective states.
15.
Many states, including Colorado, require
their Presidential Electors to vote consistent with the
popular vote in the state. Thus, despite the plain
language of Article II of the U.S. Constitution, as
amended by the Twelfth Amendment, and the
Founders’ intent that the Presidential Electors be a
deliberative and independent body free to cast votes for
whomever they deem to be the most fit and qualified
candidates, Messrs. Trump and Pence – if the state
statutes are enforced – may “win” the election while
also losing, by historical margins, the nationwide
popular vote.1
1

To place Trump’s win/loss in context, he obtained 46.3% of votes
in 2016. Mr. Romney obtained 47.2% of votes in 2012; Mr. McCain
45.7% of the votes in 2008; Mr. Kerry obtained 48.5% of the vote in

App. 23
16.
Plaintiffs believe that Donald Trump is unfit
for office due to, inter alia, his myriad conflicts of
interests; his foreign business dealings; his belief –
against all facts – that climate change and global
warming are a “hoax;” the criminal and civil claims
currently pending against him; his temperament; his
promises to discriminate against Muslims and Latinos;
his recent correspondence regarding his personal
business dealings with the governments of India and
Argentina; his lack of experience (most recently
embodied by his call with Taiwan); his selection for
Attorney General a person who failed confirmation
hearings in the 1980’s due to sworn testimony that he
was racist; his selection for Secretary of Education who
lacks any teaching degree or experience, has likely
never attended public schools, has refused to send her
children to public schools, and has a vested interest in
for-profit schools; his prior bankruptcies; his refusal to
provide information regarding his investments and
holdings; his penchant for nepotism; and his threats to
use nuclear weapons against other sovereign nations.
See Exhibit 1.
17.
Plaintiffs believe that Michael Pence is unfit
for office due to, inter alia, his refusal to comply with
federal law including Obergefell v. Hodges and Roe v.
Wade; his hostility towards the freedom of and from
religion (particularly any religion other than
Christianity); his efforts to shut down the federal
government unless Planned Parenthood was prohibited
from receiving federal funds; his belief – against all
2004; and in 2000, Mr. Gore obtained 48.4% of the popular vote
while President Bush obtained 47.9% of the popular vote.

App. 24
facts – that evolution, climate change, and global
warming are “myths;” his support for “conversion
therapy” which seeks to “convert” homosexuals through
methods such as forcing people to engage in
heterosexual intercourse; and his discriminatory
policies and statements regarding communities of color.
See Exhibit 1.
18.
Though Hillary Clinton and Timothy Kaine
won the majority vote in Colorado and are qualified for
office, Plaintiffs cannot be constitutionally compelled to
vote for them. Plaintiffs are entitled to exercise their
judgment and free will to vote for whomever they
believe to be the most qualified and fit for the offices of
President and Vice President, whether those
candidates are Democrats, Republicans, or from a third
party. For example, Plaintiffs may vote for a consensus
candidate, other than Clinton or Trump, upon whom
electors from both parties and along the ideological
spectrum can agree, so as to prevent the unqualified
Mr. Trump and Mr. Pence from ascending to the
highest offices in the United States. See Exhibit 1.
19.
The Colorado Secretary of State has stated
that he would “remove the elector” who failed to “vote
for the presidential/vice-presidential ticket that
receives the most votes in the state” and would “seat a
replacement elector.” Id.
20. Upon information and belief, the Attorney
General, at the direction of the Governor, would enforce
and support the actions of the Secretary of State. Id.
21.
Removing Plaintiffs and replacing them
violates Article II and the Twelfth Amendment. Article

App. 25
II as amended by the Twelfth Amendment, provides
that Plaintiffs “shall ... vote by ballot for President and
Vice President.” Nothing within the Constitution
permits states to remove and replace duly appointed
and elected electors.
22.
Colorado’s binding statute perpetuates a
violation of the Equal Protection Clause of the
Fourteenth Amendment by diluting the votes of
Colorado’s electors.
23.
Removing Plaintiffs and replacing them
violates the First Amendment’s guarantees of freedom
of speech. Voting, i.e. political speech, is the highest
and most protected form of speech. Removing Plaintiffs
and replacing them compels speech in violation of the
First Amendment.
24.
The purpose of the Electoral College, which
is made up of electors such as Plaintiffs, is to elect the
President and Vice President of the United States.
There is nothing in the Constitution that permits or
requires electors to vote the same as the popular vote
in their states. For the first 100 years of our history,
the majority of states did not hold popular votes for the
election of president and vice president and, instead,
the states themselves appointed the electors who voted
for president and vice president.
25.
Alexander Hamilton explicitly stated “that
that the immediate election should be made by men
most capable of analyzing the qualities adapted to the
station.” Federalist No. 68. The electors (the “men”)
would be “most likely to possess the information and
discernment requisite to such complicated

App. 26
investigations.” Id. The electors were created so that
they, as a deliberative body, would be “detached” and
less prone to be influenced by the “heats and ferments”
of a raucous election. Id. The electors would help
ensure “the office of President [would] never fall to the
lot of any man who is not in an eminent degree
endowed with the requisite qualifications.” Id. The
electors create an “obstacle” to “cabal, intrigue, and
corruption” and prevent “foreign powers [from]
gain[ing] an improper ascendant in our councils.” Id.
The Electoral College, then, including Plaintiffs, must
be free to vote for any candidate so as to avoid electing
someone, such as Messrs. Trump and Pence, who only
have “[t]alents for low intrigue, and the little arts of
popularity.” Id.
26.
While the requirement that Plaintiffs sign a
pledge is constitutional pursuant to Ray v. Blair, 343
U.S. 214 (1952), the Supreme Court left open the
question of whether enforcement of such pledges, or
penalties for violating the pledges, was constitutional.
27.
Similarly, while Article II, Section 1 provides
that states “shall appoint, in such Manner as the
Legislature thereof may direct,” electors, the
Constitution does not provide that the states shall have
the ability to penalize electors or remove electors. Once
an elector is appointed, removal of the elector violates
Article II.
28.
Removing an elector for refusing to vote in
conformance with the popular vote in his or her
respective state, as set forth above, is tantamount to
compelled speech. It also renders superfluous the
Electoral College and is antithetical to the purpose of

App. 27
the Electoral College as articulated by Alexander
Hamilton, for if the electors are merely to vote for the
candidate who won the popular vote in their state, then
there is no need for the Electoral College at all. Also, by
forcing electors to vote a certain way, Colorado has
created a winner-take-all system when it comes to
awarding its electoral votes, a system that violates the
Equal Protection Clause because it dilutes Colorado’s
electors’ votes.
29.
Injunctive relief is necessary to prevent the
Defendants from violating Plaintiffs’ constitutional
rights. Without such relief, the Defendants will remove
Plaintiffs as electors and replace them with someone
who will presumably vote the way Defendants want
him/her to vote and Plaintiffs’ rights will be irreparably
harmed. Plaintiffs will be precluded from voting for the
President and Vice President since the “general”
election on November 8, 2016, in which Plaintiffs cast
a ballot for President and Vice President, was not an
actual vote for the President and Vice President, but
rather a vote for electors. See Colorado Constitution,
Schedule, Section 20 (“after the year [1876] the electors
of the electoral college shall be chosen by direct vote of
the people.”).
30. This Court can provide declaratory relief
because an actual and substantial controversy now
exists between Plaintiffs and the Defendants with
respect to Plaintiffs’ rights and Defendants’ rights and
duties under C.R.S. § 1-4-304(5). Plaintiffs’
constitutional rights will be directly, substantially, and
irreparably violated, affected, and injured unless and
until this Court declares any law or regulation

App. 28
requiring electors to vote consistent with the popular
vote in their state, and any law or regulation removing
or otherwise penalizing an elector for not doing so, is
unconstitutional.
WHEREFORE, Plaintiff asks the Court to:
A. Enter an order declaring C.R.S. § 1-4-304(5)
unconstitutional under Article II, Section 1,
Amendment I, Amendment XII, and Amendment XIV
of the U.S. Constitution;
B. Enter an order permanently enjoining the
Defendants from removing and/or replacing any
presidential elector who votes for a presidential or vice
presidential candidate who did not receive the highest
number of votes in a general election in Colorado
immediately preceding the convention of the electors;
and
C. For all such other relief as the Court deems just
and proper.
Dated this 6th day of December 2016.
By:

/s/Jason B. Wesoky
Jason B. Wesoky, Esq.
Attorney for Plaintiff
1331 17th Street, Suite 800
Denver, CO 80202
Telephone: (303) 623-9133
Facsimile: (303) 623-9129
E-mail: jwesoky@dmhlaw.net

App. 29
VERIFICATION
STATE OF COLORADO )
) ss.
COUNTY OF DENVER )
I, Polly Baca, swear and affirm that the allegations
in the above Complaint are true and correct to the best
of my knowledge.
/s/Polly Baca
Polly Baca
The foregoing document was acknowledged before
me this 6th day of December, 2016, by Polly Baca.
Witness my hand and official seal.
/s/Leigh An Jaskiewicz
Notary Public
My commission expires: 9/16/2019
LEIGH AN JASKIEWICZ
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID 20154036733
MY COMMISSION EXPIRES
SEPT. 16, 2019

App. 30
EXHIBIT 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No.
________________________________
POLLY BACA and ROBERT
)
NEMANICH,
)
)
Plaintiffs
)
)
v.
)
)
JOHN W. HICKENLOOPER JR., )
in his official capacity as Governor )
of Colorado, CYNTHIA H.
)
COFFMAN, in her official capacity )
as Attorney General of Colorado, )
and WAYNE W. WILLIAMS,
)
in his official capacity as Colorado )
Secretary of State.
)
)
Defendants.
)
________________________________ )
AFFIDAVIT OF POLLY BACA IN SUPPORT OF
VERIFIED COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF
I, Polly Baca, being duly sworn upon my oath, state:
1.
I am over eighteen years old, and am fully
competent to make this Affidavit.

App. 31
2.
I am resident of the City and County of
Denver, Colorado. I ran for and was nominated as a
presidential elector for Colorado Democratic Party.
3.
I attended my Democratic caucus, my
Democratic county convention, my Democratic
congressional district convention, and my Democratic
state convention. At each stage, I sought the
nomination to be a presidential elector.
4.
At the state convention on April 16, 2016, I
became a presidential elector for the Colorado
Democratic Party.
5.
Upon becoming an elector, I was required to
and did execute a pledge to vote for the Democratic
Party’s nominees for President and Vice-President.
6.
I understand that the Democratic
Presidential candidate is Hillary Rodham Clinton and
the Democratic Vice-Presidential Candidate is Timothy
Kaine.
7.
I understand that the majority of persons in
Colorado who cast their ballots on November 8, 2016,
chose Hillary Clinton and Timothy Kaine for President
and Vice-President. It is my understanding that those
citizens’ votes were not direct votes for the President
and Vice-President, but rather votes for those
candidates’ slate of electors, of which I am a member.
8.
I understand that, based on the votes in the
remaining 49 states and the District of Columbia that
if all electors in the Electoral College vote the same as
the popular votes in their respective states, Donald
Trump and Michael Pence will become President and

App. 32
Vice-President despite them losing the nationwide
popular vote by more than 2.5 million votes.
9.
Based on my investigation, deliberation, and
research, I believe that Donald Trump is unfit for office
due to, inter alia, his myriad conflicts of interests; his
foreign business dealings; his attacks on the First
Amendment of the U.S. Constitution; his belief –
against all facts – that climate change and global
warming are a “hoax;” the criminal and civil claims
currently pending against him; his temperament; his
promises to discriminate against Muslims and Latinos;
his recent correspondence regarding his personal
business dealings with the governments of India and
Argentina; his lack of experience (most recently
embodied by his call with Taiwan); his selection for
Attorney General a person who failed confirmation
hearings in the 1980’s due to sworn testimony that he
was racist; his selection for Secretary of Education who
lacks any teaching degree or experience, has likely
never attended public schools, has refused to send her
children to public schools, and has a vested interest in
for-profit schools; his prior bankruptcies; his refusal to
provide information regarding his investments and
holdings; his penchant for nepotism; and his threats to
use nuclear weapons against other sovereign nations.
10.
Based on my investigation, deliberation, and
research, I believe that Michael Pence is unfit for office
due to, inter alia, his refusal to comply with federal law
as set forth in with Obergefell v. Hodges and Roe v.
Wade; his hostility towards the freedom of and from
religion (particularly any religion other than
Christianity); his efforts to shut down the federal

App. 33
government unless Planned Parenthood was prohibited
from receiving federal funds; his belief – against all
facts – that evolution, climate change, and global
warming are “myths;” his support for “conversion
therapy” which seeks to “convert” homosexuals through
methods such as forcing people to engage in
heterosexual intercourse; his refusal to comply; and his
discriminatory policies and statements regarding
communities of color.
11.
It’s my understanding that the Secretary of
State will “remove the elector” who fails to “vote for the
presidential/vice-presidential ticket that receives the
most votes in the state” and would “seat a replacement
elector.”
12.
It’s my understanding that the Attorney
General or the Secretary of State, at the direction of
the Governor, would conduct this removal and
replacement.
13.
Based on my deliberation, investigation, and
research, I believe that it is in the best interests of
Colorado and the United States to prevent
Trump/Pence from taking office. Therefore, it is my
duty, as a member of the Electoral College to vote in
the best interests of the state and nation. I cannot do
that if the State is going to force me to vote for
Clinton/Kaine. While I am certain Clinton/Kaine are
eminently qualified and fit to be President and VicePresident, it may be that I need to vote for someone
other than them to prevent Trump/Pence from taking
office. Therefore, I need the freedom to vote for any
person whom I feel is the most viable, fit, and qualified
person to become President and/or Vice-President.

App. 34
14.
I have been in contact with some of my fellow
electors in other states and they have all expressed
reservations about Trump/Pence and the need to
protect the country from them. It is my desire and
intent to vote for someone for President and VicePresident that will either obtain 270 electoral votes
and is not Trump/Pence or who will obtain enough
votes in the Electoral College to be one of the top-three
vote getters if no candidates reach 270 electoral votes
so that the House of Representatives can consider Mrs.
Clinton, Trump, and one other candidate whom the
electors – or at least a large portion of us – agree is
viable, qualified, and fit for office. The same holds true
for Vice President except that I understand the top two
vote-getters for that office will be decided by the
Senate.
Executed this 6th day of December 2016.
FURTHER AFFIANT SAYETH NAUGHT.
/s/Polly Baca
Polly Baca

App. 35
STATE OF COLORADO
CITY AND COUNTY OF DENVER

}
} ss.
}

The foregoing document was acknowledged before
me this 6th day of December, 2016, by Polly Baca.
Witness my hand and official seal.
/s/Leigh An Jaskiewicz
Notary Public
My commission expires: 9/16/2019
LEIGH AN JASKIEWICZ
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID 20154036733
MY COMMISSION EXPIRES
SEPT. 16, 2019

App. 36
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No.
________________________________
POLLY BACA and ROBERT
)
NEMANICH,
)
)
Plaintiffs
)
)
v.
)
)
JOHN W. HICKENLOOPER JR., )
in his official capacity as Governor )
of Colorado, CYNTHIA H.
)
COFFMAN, in her official capacity )
as Attorney General of Colorado, )
and WAYNE W. WILLIAMS,
)
in his official capacity as Colorado )
Secretary of State.
)
)
Defendants.
)
________________________________ )
AFFIDAVIT OF ROBERT NEMANICH IN
SUPPORT OF VERIFIED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF
I, Robert Nemanich, being duly sworn upon my
oath, state:
1.
I am over eighteen years old, and am fully
competent to make this Affidavit.

App. 37
2.
I am resident of El Paso County, Colorado. I
ran for and was nominated as a presidential elector for
Colorado Democratic Party.
3.
I attended my Democratic caucus, my
Democratic county convention, my Democratic
congressional district convention, and my Democratic
state convention. At each stage, I sought the
nomination to be a presidential elector.
4.
At the state convention on April 16, 2016, I
became a presidential elector for the Colorado
Democratic Party.
5.
Upon becoming an elector, I was required to
and did execute a pledge to vote for the Democratic
Party’s nominees for President and Vice-President.
6.
I understand that the Democratic
Presidential candidate is Hillary Rodham Clinton and
the Democratic Vice-Presidential Candidate is Timothy
Kaine.
7.
I understand that the majority of persons in
Colorado who cast their ballots on November 8, 2016,
chose Hillary Clinton and Timothy Kaine for President
and Vice-President. It is my understanding that those
citizens’ votes were not direct votes for the President
and Vice-President, but rather votes for those
candidates’ slate of electors, of which I am a member.
8.
I understand that, based on the votes in the
remaining 49 states and the District of Columbia that
if all electors in the Electoral College vote the same as
the popular votes in their respective states, Donald
Trump and Michael Pence will become President and

App. 38
Vice-President despite them losing the nationwide
popular vote by more than 2.5 million votes.
9.
Based on my investigation, deliberation, and
research, I believe that Donald Trump is unfit for office
due to, inter alia, his myriad conflicts of interests; his
foreign business dealings; his attacks on the First
Amendment of the U.S. Constitution; his belief –
against all facts – that climate change and global
warming are a “hoax;” the criminal and civil claims
currently pending against him; his temperament; his
promises to discriminate against Muslims and Latinos;
his recent correspondence regarding his personal
business dealings with the governments of India and
Argentina; his lack of experience (most recently
embodied by his call with Taiwan); his selection for
Attorney General a person who failed confirmation
hearings in the 1980’s due to sworn testimony that he
was racist; his selection for Secretary of Education who
lacks any teaching degree or experience, has likely
never attended public schools, has refused to send her
children to public schools, and has a vested interest in
for-profit schools; his prior bankruptcies; his refusal to
provide information regarding his investments and
holdings; his penchant for nepotism; and his threats to
use nuclear weapons against other sovereign nations.
10.
Based on my investigation, deliberation, and
research, I believe that Michael Pence is unfit for office
due to, inter alia, his refusal to comply with federal law
as set forth in Roe v. Wade and its progeny; his
hostility towards the freedom of and from religion
(particularly any religion other than Christianity); his
efforts to shut down the federal government unless

App. 39
Planned Parenthood was prohibited from receiving
federal funds (even though no such funds go towards
abortion services); his belief – against all facts – that
evolution, climate change, and global warming are
“myths;” his support for “conversion therapy” which
seeks to “convert” homosexuals through methods such
as forcing people to engage in heterosexual intercourse;
his refusal to comply with Obergefell v. Hodges; and his
discriminatory policies and statements regarding
communities of color.
11.
I asked the Colorado Secretary of State what
would happen if there was a “faithless” elector,
someone who didn’t vote for Mrs. Clinton and Mr.
Kaine. The response I received, attached as Exhibit A
to this affidavit, states that the state would “remove
the elector” who failed to “vote for the presidential/vicepresidential ticket that receives the most votes in the
state” and would “seat a replacement elector.”
12.
It’s my understanding that the Attorney
General or the Secretary of State, at the direction of
the Governor, would conduct this removal and
replacement.
13.
Based on my deliberation, investigation, and
research, I believe that it is in the best interests of
Colorado and the United States to prevent
Trump/Pence from taking office. Therefore, it is my
duty, as a member of the Electoral College to vote in
the best interests of the state and nation. I cannot do
that if the State is going to force me to vote for
Clinton/Kaine. While I am certain Clinton/Kaine are
eminently qualified and fit to be President and VicePresident, it may be that I need to vote for someone

App. 40
other than them to prevent Trump/Pence from taking
office. Therefore, I need the freedom to vote for any
person whom I feel is the most viable, fit, and qualified
person to become President and/or Vice-President.
14.
I have been in contact with some of my fellow
electors in other states and they have all expressed
reservations about Trump/Pence and the need to
protect the country from them. It is my desire and
intent to vote for someone for President and VicePresident that will either obtain 270 electoral votes
and is not Trump/Pence or who will obtain enough
votes in the Electoral College to be one of the top-three
vote getters if no candidates reach 270 electoral votes
so that the House of Representatives can consider Mrs.
Clinton, Trump, and one other candidate whom the
electors – or at least a large portion of us – agree is
viable, qualified, and fit for office. The same holds true
for Vice President except that I understand the top two
vote-getters for that office will be decided by the
Senate.
Executed this 6th day of December 2016.
FURTHER AFFIANT SAYETH NAUGHT.
/s/Robert Nemanich
Robert Nemanich

App. 41
STATE OF COLORADO
COUNTY OF EL PASO

}
} ss.
}

The foregoing document was acknowledged before
me this 6th day of December, 2016, by Robert
Nemanich.
Witness my hand and official seal.
/s/Cassandra Cannon
Notary Public
My commission expires: December 9, 2019
[SEAL]

App. 42
Exhibit A
Colorado presidential electors

Inbox x

Joel Albin <Joel Albin@sos.state.co.us>
Nov 18 (1 day ago)
to me –
Per our conversation this afternoon. I am writing to let
you know what the Colorado State Department’s
interpretation and action would be regarding a
faithless presidential election.
1-4-304(5) C.R.S. states that presidential electors shall
(must) vote for the presidential/vice-presidential ticket
that receives the most votes in the state. Thus, if an
elector failed to follow this requirement, our office
would likely remove the elector and seat a replacement
elector until all nine electoral votes were cast for the
winning candidates.
However, this event does not have precedent in
Colorado. Thus, we would likely seek the opinion of the
state attorney general’s office if this occurred.
Thanks,
Joel Albin
Ballot Access Manager
Elections Division
Colorado State Department

